No. 19-675

IN THE

$)Upreme Qtourt of tbe mlniteb $)tates
BANK OF AMERICA CORP., ET AL.

Petitioners,
V.

CITY OF MIAMI, FLORIDA,

Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Eleventh Circuit

CERTIFICATE OF SERVICE
I am a member of the Bar of this Court, and I hereby certify pursuant to
Supreme Court Rules 15.6, 29.3, and 29.5, that I have, this 11th day of February,
2020, served three copies of Reply Brief for Petitioners upon each party separately
represented in this proceeding by causing them to be deposited with the United
States Postal Service, with first-class postage prepaid, addressed to counsel of
record at the address listed below:

Robert S. Peck
Center for Constitutional Litigation, P.C.
455 Massachusetts Avenue, N.W.
Suite 152
Washington, DC 20001
robert.pech@cclfirm.com
(202) 944-2874
Counsel of Record for Respondent

I further certify that, pursuant to Supreme Court Rule 29.3, I have caused
electronic copies of the brief to be served on the parties at the email addresses listed
above.
I further certify that all persons required to be served have been served.

Andrew Kim
Goodwin Procter LLP
1900 N Street, N.W.
Washington, D.C. 20036
AndrewKim@goodwinlaw.com
(202) 346-4000

Counsel for Petitioners

February 11, 2020

